U.S. Department of Labor   Office of Inspector General
                           Washington, D.C. 20210

                   Reply to the Attention of:

MAR 31 1998

MEMORANDUM FOR:     J. DAVITT McATEER
                    Assistant Secretary for Mine Safety and
                         Health

FROM:               CHARLES C. MASTEN
                    Inspector General

SUBJECT:            Review of the Acquisition and Implementation
                       of Laptop Computer Technology
                    Mine Safety and Health Administration
                    Report No. 11-OEI-98-MSHA

This memorandum report presents the results of a review by the
Office of Inspector General (OIG), Office of Analysis Complaints
and Evaluations, of the acquisition and implementation of laptop
computer technology by the Mine Safety and Health Administration
(MSHA). The review, initiated in response to a congressional
referral, did not confirm the allegations that MSHA’s actions in
procuring the computers were at variance with applicable rules
nor that the laptops were unsuitable for intended uses by the
agency’s mine inspectors. However, the congressional
constituent’s letter raised valid concerns with respect to the
time required to develop and program software applications,
distribute the laptops to the inspectors and provide training in
the technology. Our review of MSHA’s laptop program indicated a
continuing need for a comprehensive implementation plan,
including the establishment of priorities and timetables, to
ensure that the goals of the program are achieved. In addition,
direct communications between inspectors, the project manager
and programmers as well as opportunities for inspectors
nationwide to share software applications, technology problems
and solutions could improve program efficiency and increase the
near term benefits of this investment.

The Assistant Secretary for Mine Safety and Health responded to:
our draft report on March 2, 1998, indicating full concurrence
with all of our recommendations and providing information on
improvements to the laptop program which have been initiated to
date. A copy of the Assistant Secretary’s response is included
as an attachment to this memorandum.
I.    Background

The Assistant Secretary for Mine Safety and Health requested
that OIG review the concerns raised in correspondence, dated
August 2, 1996, from Congressman Daniel Schaefer. This report
presents the results of the third in a series of reviews
addressing the issues forwarded by the Congressman. Our review
included interviews with selected MSHA personnel and analysis of
procurement files, contracts and related documentation at MSHA’s
Arlington, Virginia procurement division. In addition, visits
were made to MSHA field offices in Denver, CO; Norton, VA;
Richlands, VA; Jasper, AL and Hueytown, AL to ascertain the
progress and effectiveness of MSHA’s laptop technology program.
Our review was conducted in accordance with the Quality
Standards for Inspections published by the President’s Council
on Integrity and Efficiency.

II.   Review Results

The congressional constituent’s complaint alleged that MSHA
violated procurement rules in the acquisition of laptop
computers for inspectors because MSHA had not fully justified
the benefits of laptops before executing a major contract to
purchase laptops for field inspectors. Moreover, the complaint
asserted that problems with software development, training and
the harsh environment of mining areas could preclude laptop use
by the inspectors. Our review confirmed the details regarding
the status of the testing program at the time of the procurement
but did not identify any resulting infractions of procurement
laws, regulations or rules. Subsequent pilot testing has
supported the potential of the laptops to enhance the inspection
program and provided evidence that environmental factors will
not adversely impact the use of the computers. However, delays
have been encountered and continue with respect to the
development of software to automate inspection forms and access
information sources, the issuance of laptops to the inspectors
and related training. Effective planning and the establishment
of priorities for the completion of the laptop program are
required to ensure that MSHA realizes the anticipated benefits
of the new technology.

      A. Laptop Procurements

      MSHA’s acquisition of laptop computers for mine inspectors
      was accelerated over the agency’s original plan and
      completed prior to final field testing. In FY 1994, MSHA
      established a committee of officials to make an assessment
of the various potential benefits of laptop computer use
for inspectors and to determine hardware, software, and
training requirements. The committee purchased a small
number (24) of laptops for field testing. While testing was
still ongoing, MSHA was informed by senior departmental
officials that funding was available to purchase
approximately 1,000 laptops. MSHA subsequently executed a
contract in May 1995 to purchase the laptops, portable
printers, software, and peripherals. Although a bulk laptop
computer procurement had not been scheduled for FY 1995,
MSHA officials were prepared, as funds became available, to
make large-scale laptop acquisitions. MSHA is authorized to
spend up to $10 million for the laptop computer program;
expenditures through FY 97 for laptops, software, portable
printers, modems and auxiliary items totaled approximately
$4.4 million.

While conducting sufficient pilot testing prior to a
substantial commitment of resources is preferable, whenever
possible, MSHA’s decision to expedite the purchase of the
laptops in response to the unanticipated availability of
funds did not violate either Department of Labor (DOL) or
Federal procurement rules. MSHA did not represent to DOL or
General Services Administration (GSA) officials that its
laptop testing substantiated large scale purchases. Rather,
our review indicates that MSHA conducted cost-benefit and
other analysis supporting laptop computer use by inspectors
prior to the agency’s major purchase. We did not identify
any procurement regulations or procedures specifically
requiring the completion of field tests prior to
substantial procurements of automated equipment.

Our review of the laptop computer acquisition did not
identify evidence of non-compliance with any other
procurement regulations. In this regard, analysis of DOL,
MSHA and GSA procurement records confirmed that MSHA
adhered to all Delegation of Procurement Authority
requirements in effect for major technology acquisitions.
Furthermore, MSHA utilized a contractor certified by the
Small Business Administration as a minority owned small
business (8a) and conducted required contracting and price
negotiations.

Tests of the laptop computers indicate they are compatible
with planned uses and the field conditions do not limit the
effectiveness of the equipment as suggested in the
constituent’s complaint. The laptops provide resource
materials, such as regulations and violation histories, and
blank copies of inspection forms. Accordingly, inspectors
use the laptops prior to and following inspections in their
Government vehicles, offices, hotel rooms or other areas
away from extreme environmental mining conditions that
could damage the equipment.

B.   Implementation of Laptop Technology

The constituent complaint is correct that implementation of
laptop technology for MSHA inspectors has been prolonged
and problematic. Distribution of laptops and related
inspector training has proceeded slowly and opportunities
for inspectors to contribute to the system planning and
design process after the initial software releases or to
exchange ideas with other users have been limited.
Significant software design delays have also occurred,
despite the fact that MSHA has pursued a much more limited
laptop technology agenda than was originally envisioned.
While inspectors who are using laptops responded favorably
to our inquiries about the benefits and potential of the
computers, these inspectors also expressed frustration that
more laptop applications were not yet available.

     1.   Distribution of Laptops and Inspector Training

     As indicated in the congressional constituent’s
     complaint, the distribution of the laptop computers to
     the inspectors and related training has extended over
     several years, limiting the near term benefits
     realized from this technology investment. Inspectors
     assigned to the four testing offices were provided
     with laptops in 1995 and received training within a
     relatively short period of time after the receipt of
     their laptops. These inspectors were, in general,
     satisfied with their training. Other inspectors
     received their laptops in FYs 96 or 97, and were
     provided training as scheduling permitted. To date, a
     significant number of inspectors have not received
     training due, in part, to program needs. In this
     regard, training for all metal and nonmetal inspectors
     had been scheduled for FY 1997 but was postponed in
     order to respond to rising industry accident levels.

     2.   Software Design

     Software design for the laptop computers has proceeded
slowly due to several factors, some of which have been
addressed as system development proceeded. Issuance of
software to the inspectors has been prolonged first,
by the need for programming expertise not readily
available within MSHA. Second, the agency did not
initially dedicate sufficient resources to software
development. Lastly, inspectors were not afforded an
active role in design considerations and priorities.
With the release of the Inspector’s Portable
Application for Laptops (IPAL) in September 1997, the
inspectors have access to a variety of reference
materials and several inspection forms but could
significantly benefit from additional applications.

The problems and delays encountered with MSHA’s early
software releases, designated as the Inspector Laptop
System (ILS), illustrate the importance of the
programmers’ expertise and clear project priorities.
ILS applications provided in August 1995 to the four
testing offices, Denver, Norton, Richlands and Mt.
Hope, included the Federal Mine Safety and Health Act,
agency regulations, the Program Policy Manual,
electronic citation and order forms, and historical
mine inspection results, accident and injury
information by workgroups. The various ILS releases,
particularly the first, were plagued with programming
“bugs” and design flaws. These technical difficulties
were primarily attributable to MSHA’s reliance upon
programmers whose principal area of expertise involved
working in a mainframe environment rather than on
personal computer/Windows-based database programming.
The goal of releasing ILS software timely to meet
immediate inspector needs was also delayed because
separate systems for coal and metal/non-metal programs
were required.

MSHA’s laptop committee recognized the shortcomings of
the ILS approach and in May 1995 established a new
team to design the Inspector's Portable Application
for Laptops (IPAL), but development of this system
also encountered significant delays. The continuing
delays occurred because MSHA remained committed to the
concept of a fairly sophisticated database application
but allocated insufficient programming resources to
IPAL design during its first 18 months. In response,
MSHA. hired two contract programmers in January 1997
whose participation greatly expedited development of
the new system. IPAL was released for testing on
September 15, 1997, and is expected to be a
significant improvement over ILS.

MSHA’s programmers overcame several technological
challenges in developing the IPAL software. One of the
design objectives was to implement IPAL as a single
system for use by both Coal and Metal/Nonmetal mine
inspectors. This approach was chosen to simplify .
maintenance of the completed system. As a result, the
software had to be designed to accommodate significant
differences between the Coal and Metal/Nonmetal
management information systems and in the procedures
followed by inspectors in the two organizations.

Providing information on mines, inspections,
citations, health samples, and mine accidents and
injuries on the laptops was also technically
challenging since the data reside in three different
systems operating on two different mainframe
platforms. More challenging, however, was the
programming necessary to synchronize data input by
inspectors on the laptops with the data downloaded
from the mainframe systems.

In response to comments from inspectors who used the
pilot software (ILS), IPAL was designed to maintain
data for an entire district on each laptop. This
required the IPAL development team to develop the
software necessary to dynamically limit the data an
inspector sees to a work area, a field office, or the
district.

The volume of data to be moved also presented
challenges. The development team decided to
consolidate the data on MSHA’s network to avoid the
need for field personnel to deal with the mainframe
computers. Data compression also was implemented to
maximize efficiency in the movement of the large
volume of data required for the IPAL system.

While the new system addresses some of the design
concerns identified with ILS, meeting the immediate
priorities of the inspectors and realizing the maximum
short term operational benefits have not been a focus
of IPAL software development. IPAL improvements, in
addition to those mentioned in preceding paragraphs,
include providing event and subsequent action
inspection forms and enhancing the citation/order
form. Like ILS, IPAL automates some routine data entry
and permits MSHA inspectors to download inspection
information from MSHA databases. Significant
programming time was also spent designing a resident-
edit program to correct data entry mistakes, a
software feature which could have been added after
more essential applications had been completed. In
this regard, the IPAL software does not, to date,
provide inspectors with electronic versions of many
forms used routinely by the inspectors and various
information retrieval applications of potential value
to field operations. Increasing inspectors’
participation in future software design efforts could
encourage MSHA officials to prioritize the design of
applications which will provide the most immediate
productivity benefits to the agency.

3.   Inspector Perspectives Regarding Laptop
     Technology

Although virtually all inspectors interviewed during
our evaluation were enthusiastic about the potential
of laptop technology to improve their productivity and
professionalism, the inspectors also cited various
opportunities to enhance the benefits of the laptop
technology. The inspectors clearly favored the
electronic citation form over the handwritten form,
noting that forms completed on the laptops were far
more legible and professional in appearance and both
operators and DCL attorneys had expressed appreciation
for the improvement. The inspectors, most of whom had
little prior exposure to computers before receiving
the laptops, also valued the word processing
capability and the access to reference material.
However, the inspectors advised us of the need for
additional applications, such as access to on-line
information sources, and procedures to better support
MSHA’s technological advances.

The fundamental complaint of inspectors regarding
laptop technology was that more priority applications,
particularly electronic forms were not yet available.
Even with the two additional forms available in IPAL,
inspectors estimated that 70 to 75 percent of their
paperwork will continue to be completed manually. We
discovered that some inspectors, on their own
initiative, have designed basic forms and applications
which they find very useful. All inspectors could
benefit from an expanded form system including not
only the remaining official inspection forms issued to
operators, but also the numerous internal inspection
forms used by inspectors. In addition, administrative
forms such as travel vouchers and time and activity
reports available through the Office of the Assistant
Secretary for Administration and Management(OASAM) can
be easily loaded on the laptops.

More extensive surveys of the inspectors, could
identify additional information resources or software
applications which would improve inspection operations
if available on the laptops. For example, some
inspectors in District #4 have installed inexpensive
software programs such as Easy Cad which they use for
on-line inspection and accident investigation
drawings.

Instituting a process where inspectors can share
applications and communicate ideas and technology
problems could better ensure that MSHA realizes
maximum benefits from the agency’s investment in
laptop technology. An in-house electronic bulletin
board or similar procedure, not currently available,
could facilitate the dissemination of such information
and spare inspectors from engaging in duplicate
application design efforts or addressing difficulties
overcome by other field offices.

The development of a policy statement expressing
senior management’s commitment to the use of laptop
technology by the inspection divisions and procedural
guidance on the intended and appropriate uses of the
computers could assist in overcoming other concerns
brought to our attention. In this regard, the
inspectors reported that most managers and supervisors
were supportive of MSHA’s efforts to provide
inspectors with laptop technology but some were
uncertain about permissible uses. For example, some
inspectors noted that their supervisor(s) prohibited
them from using the laptops to expound their short-
hand notes and observations from the mine inspections,
requiring instead that inspectors transcribe this
information in handwritten form. During the course of
our review, we did not identify any policies or
instructions to supervisors or inspectors concerning
the expected uses of the laptops and any program
related restrictions.

4.   Project Planning and the Future of Laptop
     Technology

MSHA originally envisioned a very ambitious role for
laptop computers in the field. Beyond electronic forms
and basic reference material, inspectors were expected
to have access to much of the vast amount of data MSHA
collects from the mining industry, including
ventilation, roof control, and other mine safety
plans.1 From a technological perspective, such
aspirations seem feasible given the increasing ability
of mine operators to transmit data digitally, and the
availability of scanners and optical interface
software.

However, as indicated in this report, the agency is a
substantial distance from achieving the original goals
of the laptop program. The IPAL software package
recently issued, for example, does not constitute a
complete electronic form system, since a majority of
MSHA’s official inspection forms and numerous internal
agency forms and documents used by inspectors are not
available. Moreover, interviews with responsible MSHA
managers and programmers indicated that there is no
definitive plan regarding the next phase of IPAL
development and it was not evident that MSHA officials
were fully considering newer technologies that had
developed since the laptop program’s inception in
1994.

Improved planning is, therefore, critical to establish
system development priorities for the most effective
immediate use of the laptop equipment and to ensure
that the program’s ultimate objectives are fully
realized. This process would include a thorough
assessment of the technology needs, priorities and
abilities of inspectors, and an examination of the
programming expertise required to design future
applications. Effective planning would also entail an
examination of newer information technologies which
our research indicates have revolutionized data
collection and retrieval, including CD-ROM, Local Area
          Network (LAN), and Internet technology. MSHA could
          also survey other government agencies to determine how
          they have resolved technology challenges.

     MSHA Response

     “Overall, the report is fair and constructive. The
     recommendations are sound and point the way to more
     effective use of laptop computers within MSH.A. My only
     concern with the report is that it tends to understate the
     technological problems our computer programmers have
     overcome and the degree to which MSHA inspectors are using
     laptop computers.

     MSHA inspectors have already issued over 47,000 citations
     and orders using the pilot version of the laptop software.
     The early evidence suggests that the Inspectors’ Portable
     Application for Laptops (IPAL) is a significant improvement
     over the pilot version and that the new application has a
     tremendous potential to enhance the inspection process.”

     OIG’s Conclusion

     We appreciate the information MSHA has provided to clarify
     the extent to which the laptop computers have’ been used.
     In response to the concern that the report understated the
     technological problems overcome by the programmers, we have
     expanded the section on Software Design in the final report
     to incorporate additional information provided by agency
     officials on this issue.

III. Recommendations

We recommend that the Assistant Secretary for Mine Safety and
Health:

     1.   Require the development of a comprehensive plan to
          ensure the accomplishment of all MSHA laptop
          technology goals, including remaining software design
          and other system development requirements, priorities
          for each action item, allocation of resources,
          assignment of responsibilities and timeframes for
          completion. In developing the plan, MSHA should:

          •    Solicit direct inspector input concerning the
               applications to be developed and their
               priorities. Opportunities should be provided for
          participation by inspectors in every District,
          for example, through the establishment of
          voluntary user groups comprised of those
          inspectors most interested in computer
          applications. Ensure that inspectors, programmers
          and project managers are encouraged to
          communicate regularly as system development
          proceeds and, if MSHA’s laptop committee is
          retained, designate inspectors to serve on the
          committee.

     •    Reassess the basic technological assumptions and
          agendas that influenced ILS and IPAL. Closely
          scrutinize the feasibility of proposed software
          designs, the need for and priority of complex
          applications, the time and cost required and the
          resulting delays in developing other
          applications.

     •    Examine the solutions other Government agencies
          have found for resolving technology problems
          comparable to those posed by the laptop program.
          An option for conducting such a study would be a.
          consultant with expertise in assisting Federal
          agencies to develop and integrate computer
          technology who could also lend an independent .
          perspective to the decision making process.

MSHA Response

"I have directed senior Agency staff to develop a
comprehensive plan to ensure the accomplishment of MSHA’s
laptop technology goals, including remaining software
design and system development requirements, priorities for
each action item, allocation of resources, assignment of
responsibilities, and time frames for completion. The plan
will be completed by June 30, 1998.

MSHA’s experience deploying laptop computers has
demonstrated the need to involve inspectors and enforcement
supervisors more fully in setting priorities for the
development of software applications they will use. To meet
that need, I have instructed the Director of Program
Evaluation and Information Resources to establish a
steering committee of inspectors, supervisors, and computer
programmers. The steering committee will provide direct
input into the laptop plan by recommending priorities for
software modification, training, and future application
development based on input from inspectors and supervisors.

The steering committee will assist MSHA in reassessing the
basic technological assumptions and agendas that influenced
the Inspectors’ Laptop System and the Inspectors’ Portable
Application for Laptops. The committee also will examine
the solutions other government agencies have found for
resolving technological problems comparable to those posed
by the laptop program and advise senior management on those
that worked the best.

We have contracted with a computer specialist to bring an
outside perspective to the process and to facilitate the
deliberations of the steering committee.

Finally, I have directed senior Agency staff to establish a
computer users’ group in the field so that experienced
users can support those with less experience. Through this
process, I envision that an informal but powerful network
will emerge to make this and other future technology
projects at MSHA as successful as possible not only for
experienced computer users but for novices as well.”

OIG's Conclusions

MSHA’s response and subsequent informal discussions
indicate that agency officials fully concur with this
recommendation and have begun to implement the agreed upon
actions. For example, initial meetings between the
consultant and the laptop committee have already occurred.
We, therefore, consider this recommendation resolved and
will close this item when we receive a copy of the agency’s
comprehensive plan for the completion of the laptop
program.

2.   In the short term, provide inspectors with basic
     applications for immediate use to facilitate
     inspections and increase productivity, including
     inspection and routine administrative forms, reference
     materials and commercial software. Several options
     follow which could assist MSHA officials to accelerate
     the distribution of software of particular interest to
     the inspectors.

     •    Obtain compatible applications for DOL
          administrative forms from OASAM, and use form
          generation or spreadsheet packages to expedite
          the addition of MSHA forms.

     •    Survey inspectors to determine additional
          reference material of value. Scanning this
          material into an electronic format could permit
          ready adaptation for the laptop computers.

     •    Survey the field offices to determine commercial
          software which some inspectors have installed on
          their laptops and consider beneficial.

MSHA Response

“I have directed senior Agency staff to survey inspectors
to identify the additional forms, reference materials, and
commercial software programs which inspectors believe will
facilitate their inspections and increase their
productivity. The laptop steering committee will evaluate
inspector suggestions and recommend the priorities for
their deployment. Subject to resource constraints, MSHA
will implement the forms, reference materials, and
commercial . software programs that inspectors have
indicated would be most beneficial in the short term.”

OIG's Conclusions

We concur with MSHA’s plan to survey the inspectors to
determine additional applications of importance to them and
to task the steering committee with the responsibility for
recommending priorities. This recommendation is considered
resolved and will be closed when MSHA provides us
documentation indicating the prioritized listing of
additional applications with a timetable for procurement.

3.   Establish as a top priority the distribution of the
     laptops to inspectors who have not yet received the
     computers and the completion of training sessions for
     all inspectors.

MSHA Response

“I have set an Agency goal of fully implementing laptop
computers for all inspectors by the end of 1998. Steps are
underway to complete the distribution of all available
laptop computers and the IPAL software to inspectors for
their regular use and to provide training in the use of the
computers and the new software. I also have approved the
purchase of enough additional laptop computers to enable
every inspector to realize the benefits this technology can
provide.”

OIG's Conclusions

We consider the goal cited in MSHA’s response to be
reasonable and have resolved this recommendation. We will
close this item when MSHA provides us documentation
supporting that training has been completed for all
inspectors.

4.   Institute a process, such as an in-house electronic
     bulletin board, to assist inspectors in sharing
     applications they have developed as well as
     information about commercial software programs,
     resource materials and solutions to laptop technology
     problems.

MSHA Response

"I have directed senior Agency staff to institute a
process, such as an electronic bulletin board, to assist
inspectors in sharing applications they have developed, as
well as information about commercial software programs they
have used, reference materials they have found useful, and
solutions they have found to laptop technology problems.”

OIG’s Conclusions

MSHA’s response accepts our recommendation to institute a
process to facilitate the sharing of technology related
information and we, therefore, consider this item resolved.
We will close this recommendation when the agency provides
documentation indicating the completion of this action.

5.   Provide policies and guidance to managers and
     inspectors concerning senior management’s commitment
     to the automation of the inspection process as well as
     the intended and appropriate uses of the laptop
     computers and related computer technology to encourage
     maximum usage and clarify any program related
     restrictions.

MSHA Response
     "I have directed senior Agency staff, with the advice of
     the laptop steering committee, to develop the policies and
     procedures necessary to demonstrate senior management’s
     commitment to the automation of the inspection process and
     to provide suitable guidance to MSHA managers and
     inspectors regarding the intended and appropriate uses of
     laptop computers and related computer technology.”

     OIG’s Conclusions

     Based on the agency’s agreement to develop the recommended
     policies and procedures, we have resolved this item and
     will consider it closed when MSHA provides copies of the
     referenced guidance materials.

As indicated in the report, all of the recommendations have been
resolved on the basis of your comprehensive response to the
draft memorandum. Please provide us a further response within 60
days including an update on corrective actions which have been
completed and anticipated completion dates for remaining
actions.

We appreciate the opportunity to assist MSHA in the automation
of the inspection program as well as the substantial cooperation
we have received from you and your staff during this review.
Please do not hesitate to address any questions you have
concerning this report to Veronica Campbell at (202) 219-8446,
ext. 143.

Attachment
                                                                     ATTACHMENT

U.S. Department of Labor     Mine Safety and Health Administration
                             4015 Wilson Boulevard
                             Arlington, Virginia 22203-1984

02 MAR 1998

MEMORANDUM FOR         CHARLES C. MASTEN
                       Inspector General

FROM:                      J. DAVITT McATEER
                           Assistant Secretary for
                              Mine Safety and Health

SUBJECT:                   Draft Report on the Acquisition and
                           Implementation of Laptop Computer Technology

I appreciate the opportunity to review and comment on your draft
report on the acquisition and implementation of laptop computers
in the Mine Safety and Health Administration (MSHA).

Overall, the report is fair and constructive. The recommenda-
tions are sound and point the way to more effective use of
laptop computers.. within MSHPJ. My only concern with the report
is that it tends to understate the technological problems our
computer programmers have overcome and the degree to which MSHA.
inspectors are using laptop computers.

MSHA inspectors have already issued over 47,000 citations and
orders. using the pilot version of the laptop software. The
early evidence suggests that the Inspectors’ Portable
Application for Laptops (IP.AL) is a significant improvement
over the pilot version and that the new application has a
tremendous potential to enhance the inspection process.

My response to each of the recommendations in the report
follows.

Recommendation 1. I have directed senior Agency staff to develop
a comprehensive plan to ensure the accomplishment of MSHA’s
laptop technology goals, including remaining software design and
system development requirements, priorities for each action
item, allocation of resources, assignment of responsibilities,
and time frames for completion. The plan will be completed by
June 30, 1998.
MSHA’s experience deploying laptop computers has demonstrated
the need to involve inspectors and enforcement supervisors more
fully in setting priorities for the development of software
applications they will use. To meet that need, I have instructed
the Director of Program Evaluation and Information Resources to
establish a steering c6mmittee of inspectors, supervisors, and
computer programmers. The steering committee will provide direct
input into the laptop plan by recommending priorities for
software modification, training, and future application
development based on input from inspectors and supervisors.

The steering committee will assist MSHA in reassessing the basic
technological assumptions and agendas that influenced the
Inspectors’ Laptop System and the Inspectors’ Portable
Application for Laptops. The committee also will examine the
solutions other government agencies have .found for resolving
technological problems comparable to those posed by the laptop
program and advise senior management on those that worked the
best.

We have contracted with a computer specialist to bring an
outside perspective to the process and to facilitate the
deliberations of the steering committee.

Finally, I have directed senior Agency staff to establish. a
computer users’ group in the field so that experienced users can
support those with less experience. Through this process, I
envision that an informal but powerful network will emerge to
make this and other future technology projects at MSHA as
successful as possible not only for experienced computer users
but for novices as well.

Recommendation 2. I have directed senior Agency staff to survey
inspectors to identify the additional forms, reference
materials, and commercial software programs which inspectors
believe will facilitate their inspections and increase their
productivity. The laptop steering committee will evaluate
inspector suggestions and recommend the priorities for their
deployment. Subject to resource constraints, MSHA will implement
the forms, reference materials, and commercial software programs
that inspectors have indicated would be most beneficial in the
short term.

Recommendation 3. I have set an Agency goal of fully
implementing laptop computers for all inspectors by the end of
1998. Steps are underway to complete the distribution of all
available laptop computers and the IPAL software to inspectors
for their regular use and to provide training in the use of the
computers and the new software. I also have approved the
purchase of enough additional laptop computers to enable every
inspector to realize the benefits this technology can provide.

Recommendation 4. I have directed senior Agency staff to
institute a process, such as an electronic bulletin board, to
assist inspectors in sharing applications they have developed,
as well as information about commercial software programs they
have used, reference materials they have found useful, and
solutions they have found to laptop technology problems.

Recommendation 5. I have directed senior Agency staff, with the
advice of the laptop steering committee, to develop the policies
and procedures necessary to demonstrate senior management’s
commitment to the automation of the inspection process and to
provide suitable guidance to MSH7~ managers and inspectors
regarding the intended and appropriate uses of laptop computers
and related computer technology.

If you have any questions or comments about this responses
please fee1~6e€ to contact George Fesak on (703) 235-8378.
